APPENDIX
TABLE OF CONTENTS
Page Nos
COURT ORDERS:

la

Appendix A:

Maryland Court of Appeals dated 04/23/2021

Appendix B:

Maryland Court of Special Appeals dated 10/13/2020....... 2a-20a

Appendix C:

Maryland Circuit Court of Prince George’s County
21a

Dated 01/24/2020

Appendix D:

Maryland Office of Administrative Hearing
22a-32a

Dated 05/20/2019

OPINIONS:
Court Opinions & Response from Petitioner

33a — 75a

76a - 169a

OTHERS

i

IN THE

YVONNE REIGNAT-VODI
&

COURT OF APPEALS
OF MARYLAND

*

v.

Petition Docket No, 5
September Term, 2021

*
*
*

MOTOR VEHICLE ADMINISTRATION

(No. 2390, Sept. Term, 2019
Court of Special Appeals)
(No. CAL19-29298, Circuit Court
for Prince George’s County)

ORDER
Upon consideration of the petition for a writ of certiorari to the Court of Special
Appeals and the answers filed thereto, in the abo ve-captioned case, it is this 23rd day of April,
2021

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it
is hereby. DENIED as there has been no showing that review by certiorari is desirable and in
the public interest.

Is/ Mary EllenBarbera
Chief Judge

la

E-FILED
Court of Special Appeals
Gregory Hilton
10/13/2020 9:29 AM

m-r-m

•YYONNE-RSGN-A-T-VOeiT
Appellant,
v,
MOTOR VEHICLE ADMINISTRATION,
Appellee.

*

COURT OF SPECIAL APPEALS

*

OF MARYLAND

*

September Term 2019

*

Nos, 2389 & 2390
*

*

*

*

ORDER
In each of the captioned appeals the appellant has filed a “Third Motion to Extend
Time for Filing Appellant’s Corrected Briefs.” The appellee has filed a Line in response to
the appellants motions, in which the appellee “defer[s] to the Court,.” The appellant has
additionally filed in No. 2389. a “Motion on Order of 24 September 2020 on Appellants
Extension to File Corrected Briefs.” and, in No. 2390, a “Motion on Order of 23
September 2020 on Appellants Extension to File Corrected Briefs on Case No, 2390,”
This Court’s Orders entered in each of the captioned appeals on September 24, 2020
provided, in bold type, that “|t)he Court will not grant the appellant any further
extension of time and this appeal will be dismissed if the appellant does not file
corrected briefs on or before September 30,2020.**
Moreover, in each of her three requests for a filing extension the appellant has

r

~‘»v'

asserted that more time is necessary so that she can incorporate into her corrected briefs
the agency record that was received in this Court on September 8. 2020, The appellant,
however, is prohibited from making any such modifications to her corrected briefs, Three

2a

of this Court's prior orders have cautioned the appellant that “the corrected briefs shall not
include any substantive alterations from the appellant’s first briefs filed in these appeals.”
Accordingly, it is this

day of ifcJv h&L-

2020,

ORDERED that the appellant’s “Third Motion to Extend Time for Filing
Appellant’s Corrected Briefs,” in each of the captioned appeals, are denied: and it is
further
ORDERED that the appellant’s “Motion on Order of 24 September 2020 on
Appellants Extension to File Corrected Briefs” in No. 2389, and the appellant’s “Motion
on Order of 23 September 2020 on. Appellants Extension to File Corrected Briefs on Case
No. 2390” in No. 2390, are denied; and it is further
i

t*',\

, r
*? *

ORDERED that captioned appeals are dismissed for the appellant's failure to file a
.< -V.
brief as directed by this Court’s September 24, 2020 Orders in each of the captioned
i

-

appeals.
S?

£

-

"’•'j

v* '

, -*v.

Matthew !flFaQer. Chief Judge

3a

f

YVONNE REIGNAT-VODI,
Appellant,

IN THE
*•

COURT OF SPECIAL APPEALS
*

v.

OF MARYLAND

MOTOR VEHICLE
ADMINISTRATION,
Appellee.

*

No. 2390, September Term, 2019
*

(Cir. Ct. No. CALI 9-29298)
*

ORDER
After the appellant was ordered to correct her brief to conform to the Maryland
Rules, she filed a brief that substantively modified her original brief. Rather than dismiss
the appeal, as the appellee had requested, we permitted the appellant to file a corrected
brief on or before September 3. 2020. In the order granting that relief, the appellant was
admonished not to add any 'Issues, facts, or arguments not included in the original brief.”
When the appellant later moved to extend time to file her corrected brief, the order granting
the extension again warned the appellant not to make any substantive changes to her brief.
Appellant was granted an additional extension of time and was warned, in bold faced type,
that:
The Court will not grant the appellant any farther extension of time and
this appeal will be dismissed if the appellant does not file corrected briefs
on or before September 30, 2020. The appellant is again cautioned that
the corrected briefs shall not include any substantive alterations from
the appellant’s first briefs » « « *

4a

When the appellant again requested an extension of time, we denied the motion and*
because the corrected brief had not been filed, dismissed the appeal noting the warnings
that had already been given to the appellant.
Appellant has now moved for reconsideration of our order dismissing the appeal.
The appellee opposes that relief Upon consideration of the motion for reconsideration, the
3^1lay of October
opposition, the appellant's reply to the opposition, and the record, it is
2020, by the Court of Special Appeals,
ORDERED that the motion for reconsideration is denied.
FOR A PANEL OF THE COURT
consisting of Fader. CJ.,Qczyft Leahy, JX
<_

Chief Judge's Signature Appears on
the Original of this Document

Matthew VrThder^Chief Judge

1 The history of the briefing in this case is paralleled in Yvonne Reignat-Yodi v.
Motor Vehicle Administration, No. 2389, Sept. Term, 2019, and also resulted in the
dismissal of that appeal. The two appeals arise out of a common fact pattern, but the
captioned case is an appeal from the dismissal of a claim for damages against an employee
of the Motor Vehicle Administration. No. 2389 is an appeal from judicial review of an
agency decision.

5a

Court of Special Appeals
Gregory Hilton
9/23/2020 1:11 PM

YVONNE REIGNAT-VODL
Appellant.
v.

MOTOR VEHICLE ADMINISTRATION.
Appellee.
*

*

*

*

*

$

IN THE

:S

COURT OF SPECIAL- APPEALS

*

OF MARYLAND

*

September Term 2019

*

No. 2390

*

&

*

*

ORDER
The appellant has filed a "Motion to Correct the Records From the Circuit Court of
Prince George’s County Maryland CAL. 1929298” and a "Motion to Transmit Agency
Record to the Maryland Court of Special Appeals and to be Corrected by its Inclusion to
the .Records: CAL 19-29298” in which she requests the record in this appeal be corrected
by the inclusion of the record of the Office of Administrative Hearings. The appellee has
not responded to the motions.
This Court has reviewed the record in this appeal and has concluded that there was
no agency record before the circuit court. Unlike in appeal No, 2389/2019. which is a
separate appeal currently pending in this Court, the case from which this appeal was taken
was not before the circuit court on a petition for judicial review from an administrative
agency, but instead, was initiated by a complaint filed by Ms. Vodi against William Kraft,
an employee of the State of Maryland.1 The circuit court dismissed Ms. Vodi’s complaint

i The appellant’s Notice of Appeal replaced Mr. Kraft’s name as the defendant in
the circuit court and substituted in the Motor Vehicle Administration. I he State appeared
to defend Mr. Kraft in the circuit court, asserting that governmental immunity applied to

6a

f^v^ffleftg^fe©H^soH^4^ii^lw^-tQ^^t^djiidiGateiiei^rievance at the administrative
level and otherwise exhaust her administrative remedies.
!

I

i

Because there was no agency record before the circuit court, it is this
<‘Vtn X'f 'Vv, h -pi

s

day of

2020,

ORDERED that the appellant’s "Motion to Correct the Records From the Circuit
Court of Prince George’s County Maryland CAL 1929298" and "Motion to Transmit
Agency Record to the Maryland Court of Special Appeals and to be Corrected by its
Inclusion to the Records: CAL 19-29298" are denied. ..
- ffiHtSFjyQcrs skmrusr
mmm oatsm ©ssrj
Matthew JvEfSr, Chief Judge

Mr. Kraft as an employee of the State. But, neither the State nor the Motor Vehicle
Administration were parties in the circuit court.

7 a.______ ..

E-F1LEC
Court of Special Appeals
Gregory Hilton
9/24/2020 9:40 AM

■\ f A

i xrv

:^¥mh

-rtrTtfir

Appellant.

•5*

COURT OF SPECIAL APPEALS

v.

OF MARYLAND

MOTOR VEHICLE ADMINISTRATION.

*

Appellee.
■

September Term 2019

v.

&

'5

nf

*

Nos. 2389 & 2390
ill

*■

❖

❖

ORDER
in each of the captioned appeals the appellant has filed a "Second Motion to Extend
Time .tor Filing Appellant's Corrected Briefs, v*- and tile appellee has filed oppositions to the
appellant's memons,
/

lrpo.ii consideration of the foregoing. It is this J? V clay

/

■/

202s).

ORDERED that the appellant's '•Second Motion to Extend Time for Filing
Appellants Corrected Briefs," is granted: and It is further
ORDERED that the appellant’s corrected briefs in these appeals shall be filed on or
before September 30, 2020. The Court will mi grant tine appellant any further
extension ot time and this appeal will he dismissed if the appellant does not tile
corrected fee-left on or before September 30, 2020. The appellant is again cautioned
tiu-iA rite corrected brteis shall aot include any substantive alterations from the
appellant's first briefs fifed in these appeals; and it is further

i
8a

that ihe appellee's briefs shall be filed on or before October 30, 2020:
and il is further
ORDERED that the consideration, of this appeal shall be postponed pending
completion of briefing. Following the filing of the appellee’s briefs, the Court will
seneduie the month for the consideration of this appeal for the next available session.

tctcEf,©fisrs wsmsssi
Matthew J. Fader,£;hief Judge'

!•

!
;
l

ya

E-FILED
Court of Special Appeals
Gregory Hiltorj
9/3/2020 2:12 PW

YVONNE REIG NAT-VODL
Appellant

&

IN THE

*

COURT OF SPECIAL APPEALS

=n

v.
MOTOR VEHICLE ADMINISTRATION.

*

*

• September Term 2019

*

Appellee.
•Y

OF MARYLAND

*

•i-

at

Nos. 23S9& 2390
$

*

v

ORDER
i n each of the captioned appeals., the appellant has filed a "Motion on the Court of
Special Appeals Decision' Without Oral Argument^ in which the appellant asks, "if
Appellant may know the Court decision without oral argument on the above captioned
case has been reached?" It appears that the- appellant believes that the Court lias already
reached a decision in these appeals, which .s incorrect. When the Court reaches a decision,
its opinion! $) will be filed with the Clerk of the Court, who will promptly send notice of
the decisions) to both parties. See Md. Rule 1-324(a).
Accordingly, it is this 3
i

day of 5>rd? /bdt h

•

2020. by the Court of

Special A ppeais.
ORDERED that the appellant’s "Motion on the Court of Special Appeals Decision
Without Oral Argument" is denied as moot.
i

-

Matthew jCFader. Chief Judge

10a

E-FILED

Court of Special Appeals
Gregory Hilton
9/4/2020 3:10 PM

YVONNE REIGNAT-VODL
Appellant,
v.
MOTOR VEHICLE ADMINISTRATION.
Appellee.
*

*

*

*

*

*

♦

IN THE

*

COURT OF SPECIAL APPEALS

*

OF MARYLAND

*

September Term 2019

*

Nos. 2389 & 2390

*

#

*

*

*

*

*

ORDER
In each of the captioned appeals the appellant has filed a "Motion to Extend Time
for Filing Appellant's Corrected Briefs." and the appellee has filed oppositions to the
appellant's motions.
Upon consideration of the foregoing, it is this

day of

2020.

ORDERED that the appellant’s "Motion to Extend Time for Filing Appellant's
Corrected Briefs." in each of the captioned appeals, is granted in part: and it is further
ORDERED that the appellant's brief in the captioned appeals shall be filed on or
before September 8. 2020. The appellant is reminded that this Court’s August 6. 2020
Order prohibits substantive modifications to the appellant's corrected briefs.
/CHIEF JtlBSFS StGMAWRt
0# OftttttML.0950551/

MatthevyN'fFader, ChieLikrdge

fc/r ™
X*

/#§

11a

E-FILED
Court of Special Appeals
Gregory Hilton
8/6/2020 3:21 PM

VV'ONNH KI'lGNAT-VODl

IN I HI,

Appellant.

COURT OF SPECIAL APPEALS

v.

OF MARYLAND

*
motor VEHICLE
ADMINISTRATION.

SEPTEMBER TERM. 20! 9
-f-

No. 2390

Appellee,
*

*

*

¥

*

*

•*

(Cir. Cl. No. CAU9292 98]
*

*

£

ORDER
Upon consideration of die ‘-Appellee s Motion iu Dismiss or In the Alternative to
Suikc Por.rous oi Non-Compljant Briel'.” the "Appellant's Motion lo Object to
Appellee's Motion to Dismiss or in the Alternative to Strike Portions of Appellant'.-.
Hi'iels.

and the appellee's "Motion lor Extension of’lime fur Filing Respondent' s

Brief.'' tt is this J$_

dil.v ol'/jb?.tdjL 2020. by the Court oi'Specia

I Appeals.

ORDERED that. tite "Appellee's Motion to Dismiss or in the Alternative to Strike
Portions ol Nun-Compliant Briel" is granted in pan. and denied in pari: and it is further
1>Rl.)hRl:l) that the appellee's request lor dismissal is denied: and it is further
(HIDE RED that the appellee's request to strike the appellant's corrected brief and
2
j

record extract is granted; and it is further
Ok JhKhD that the appellant is directed to ItIc. on or before September 4. 2020.
15 copies oi a coircctcd brief and. il Hied as a separate volume, no fewer than ten copies
of a corrected record extract in full compliance with the Maryland Rules, including but
!K>i limited tu addressing the following;

T2a

U'onwu\i record c:<ttttet-".-ihall cemaiH-itH pains of the. record dun. m:e
icasoitabA necessary for the determination o; the question* presenied by the appeal." The
corrected record extract shall not include, materials thaL are not part of the record:
e-.'>0 ji) and 8o()3(ai and (h) (consecutive numbering required for pages of brief,
appendix and i euti d extract record extract 10 he numbered consecutively from first
page to last page as E. i, £. 2. £ etc,):
8-503(b) (corrected references in the statement of taels and elsewhere in the brief
ol pages of the record exiraci shall he indicated as "H.
And it is fun her ORDBRIJ) that die corrected brief shall not include anv
substantive changes from ihe first brief the appellant filed, including by adding issues.
!jtb, ot aiguinenis not included in die original brief. Any such additions that were made
iton. Inc appellant s first .brief to the appellants second brief shall not appear in the
corrected brief that is due on September 4. 2020: and it is further
ORI)f,RI;!) that the appellee's brief shall be' tiled on or before October 5. 2020:
ami it is further
ORDURhD that consideration of this appeal is rescheduled to the November 2020
session of this Court: and it is further
ORDhRhD that the appellee s "Motion lor Kx tens ion of Time fur Filing
Respondent s Brief

filed on July 29. 2020. is denied as moot in light of tins order's

paw Lsion of a brief extension to the appellee.

fCHifr

a teevrusr

Matthew i. l-'adcr. Chief judge

13a

W0t^NE-Rf,f6N-A-WeBl7

t-

Appellant,
v.

MOTOR VEHICLE ADMINISTRATION,
Appellee.
*

#

A-

Sfs

*

*

IRIHE

■4=

COURT OF SPECIAL APPEALS

*

OF MARYLAND

*

September Term 2019

3*

Nos. 2389 & 2390

*:•

4s

f>

4?

t-

CORRECTED ORDER
On May 28. 2020. this Court issued an Order directing the appellant to file 15
copies of a corrected brief on or before July 2. 2020 to remedy the deficiencies outlined In
that Order. That same Order set August 3,2020 as the appellee’s brief deadline..
On June 10, 2020. this Court entered an order granting the appellee’s "Motion for
Extension of Time for Filing Petitioners Brief’ and extending the appellee’s brief deadline
to August 4. 2020. The Court’s order mistakenly indicated that no opposition to the
motion had been filed. The appellant filed an opposition to the appellee’s motion on June
8. 2020. and then filed another opposition on June IS, 2020, i
Upon consideration of the appellee’s “Motion for Extension of Time for Filing
Petitioner’s Brief’ and the appellant’s oppositions thereto, it is this

-) U

P

day of

2020,

, The appellant’s oppositions fail to mention the May 28, 2020 Order or to
acknowledge that; in light of the need for appellant to file corrected briefs, the deadline for
appellee's opposition briefs was already extended to August 3, 2020. We therefore take
this opportunity to remind die appellant of her obligation to file corrected briefs on or
before July 2.2020, as set forth in the May 28, 2020 Order.
i

14a

ORDERED that this Court's June 10. 2020 Order is rescinded; and it is further
ORDERED that the “Motion for Extension of Time for Filing Petitioner’s Brief’ is
granted and the appellee’s brief shall be filed on or before August 4, 2020.
/

--7^7 _

y

y#'

y

s-'&

/

•5

________

Matthew IrFadhr, Chief Judge

tPS$rf*e*~)b \A

iA#if i:;

Htses*

15a

v vonni; RKiGNAT-vonr.

•V

in

uni

Appellant.
COURT' 01- SPECIAL APPEALS
A ■

MOTOR VEHICLE
A DM INIS fRATlON.

OF MARYLAND

a

3?

Nos. 239(5

V

Appellee,
-i-

September Term 2019

* •

*

*

O'

?•'

*

*

■it

$

ORDER
i pen consideration of the appellee's '-Motion lor Uxtersion of Time for Kiting
PeiiiionerO RridC and

ikvoppositionthereto

having been filed, it is this /Q

.day.of

T-

Tint), by die Court oi Special Appeal*.
0!\l)i M.P dial the motion is granted 'and die appellee's brief shu I be l.licd on or
be!ore August !. 2u2t/.
My direction of the Chief Judge

U-c ac %:d' yS..,e iuefc-g-ccAa
__
Ruche! DomhnnvskL Chie'Deputy Clerk

16a

*

Yvonne Reignat-Vodi~
Appellant

TNTHE

*

COURT OF SPECIAL APPEALS

*

v.

OF MARYLAND

*

Motor Vehicle Administration

No. 2390, SEPTEMBER TERM. 2019

*

Appellee

MDEC: CSA-REG-2390-2019

*
*

*

*

*

*

s|s

*

4=

sjt

4:

4=

&

ORDER
On May 12, 2020. Appellant filed 15 copies of a brief that does not conform
to all applicable Maryland Rules. Specifically, the brief did not comply with the following:
8-501(h) {corrected table of contents required for record extract);
8-50 l(i) and 8-503(a) and (b) (consecutive numbering required for pages of brief,
appendix, and record extract- record extract to be numbered consecutively from first page
to last page as El, E2, E3, .etc.); and
8-503(b) {corrected references in the statement of facts and elsewhere in the brief
to pages of the record extract shall be indicated as E_) ;

It is therefore this j-8 day of Mgh

, 2020, by the Court of Special Appeals,

j

on its own initiative,
ORDERED that the brief, as filed, may be stricken and the appeal dismissed unless
Appellant files, on or before July 2. 2020. fifteen (15) copies of a corrected brief and, if

17a

filed as a separate volume, no fewer than ten (10) copies of a corrected record extract in
t

full compliance with the Maryland Rules:1------------------- —---------- ------------------ORDERED that in fixing the deficiencies identified above, appellant shall not make
any substantive changes to the brief, including but not limited to by adding issues, facts, or
arguments not included in the original brief; and it is further
ORDERED that, subject to further order of this Court, appellee’s brief shall be filed
on or before August 3, 2020; and it is further
ORDERED that the case is to remain scheduled to the September, 2020, session of
the Court.
By direction o f the Chief Judge
/n!

J4

I A

I

n
U^c^niTi
rmn

Gregory pilton. dlerk

Appellant may obtain a copy of the Court’s Guide to SelfRepresentation from the
Clerk's Office of this Court or online at www.mdcourts.gov. The Guide contains a sample
appellant brief and record extract at pages 20-49.

18a

YVONNE RFIONAT-VODI.

*

IN 1111:

Appellant.
COURT 01-' SFFClAL APPEALS
v.
OF MARYLAND
MO TOR VFIIK1.F
ADMINISTRATION,

*

Seplerr her 1 errn 2019

■{!

Nos. 2390

Appellee.
*

iU

*

;|-

*

t'i

■\-

*

S=!

ORDER
It is this A ^

dci>-of

2020, by the Court of Special Appeals.

ORDERED on the Court’s own initiative. (hat the abme-captioned appeal shall be
considered in the September 2020 session of this Court.

on the same date and by the same

. i«.* *•: ■

o*

panel as in Case No.. 2389. September Term 2019.
„- _i

’? **

O ■

jC,--,

Mattbeu .1. Fader. Chid’.fudge

?*■

}

I

j

i

19a

riM
*

YVONNE REIGNAT-VODI,
Appellant
v.

*

No. 2390, September Term 2019
CSA-REG-2390-2019

*

Circuit Court No. CAL1929298

MOTOR VEHICLE
ADMINISTRATION,
•*

Appellee
*

*

*

Jan 2 p

m

ORDER
It is this the^|jrdaVafJJhHiluV~2Molbv the Court of Special Appeals,
ORDERED that pursuant to Maryland Rule 8-2o6(c), the above-captioned appeal
proceed without a Prehearing Conference or Alternative Dispute Resolution.
By direction of the Chief Judge

Gregory Hilton, Clerk
Dear Clerk: The date of this Order commences the 10-dav period for the Appellant to order any
transcript necessary for this appeal (Md. Rule 8-411(b)) and the/goVlavberiod7for the
transmittal of the record (Md. Rule 8-412(3)).

'pcud iTl.oo
'^cdr£- 'Z-WuV-6'2-0

Vpceif*

■^\ed T\-i\^oZO

•

20a

m

4
4
4
4

! *.
.V*

tf

€
IN THE CIRCUIT COURT FOR PRINCE GEORGE’S COUNTY, MARYLAND
YVONNE REIGNAT-VODI,
Plaintiff

*
*
Case No.: CAL19-29298

v.

€

4

WILLIAM KRAFT,

t
e
t

Defendant
ORDER
The above entitled matter having come before and having been considered by this
Honorable Court, it is this

4
4
4
4

3 */ day ofcJcU}u£U£r2&)$> by ^e Circuit Court for Prince

George’s County,
ORDERED, that upon consideration of Defendant William Kraft’s Motion to
Dismiss and/or for Summary Judgment, exhibits and Affidavit of William Kraft, and any
opposition thereto, and good cause being shown; that the Motion to Dismiss is hereby
GRANTED for failure to state a cause of action; for governmental immunity; and for
failure to exhaust and administrative remedies, and it is further
ORDERED, that Plaintiffs Complaint js DISMISSED with prejudice.

{ True Copy Test
Mabasin El Amin,.ClerK

iBl \ a.02.0
jatfrefiS* —-———
\

21a

4

€
€
€
£
€
€
€

€

€

t
e
t
t
t
t
t

€
£
€
€
, £
£
£
£
e

A^That7VtJ-WallaceTevise'tbe-AdmiiiislTative43eGi5i©n-ofMay-20,-2019-pursiiant
to COMAR 28.02.01.27 (C) for clerical mistake and correct the ORDER on page 17 to

4

read:
“I ORDER that the Licensee’s driving school license* issued on May 24,2017, be
and hereby is REVOKED; and I further;...”; and,
B. In the alternative, that That ALJ Wallace revise the Administrative Decision of
May 20,2019 pursuant to COMAR 28.02.01.27 (Efy due to mistake and/or irregularity and
correct the ORDER on page 17 to read:
“I ORDER that the Licensee’s driving school license, issued on May 24,2017, be
and hereby is REVOKED; and I further;.and,

*9
*9

C. For such other relief as the nature of its cause may require.
RespectMly Submitted,
BRIAN E.FROSH
Attorney General of Maryland

K^VIDC.MERKiN

m
m
m
m

Assistant Attorney General
Office of the Attorney General
Motor Vehicle Administration
6601 Ritchie Highway, N.E.
Glen Bumie, Maryland 21062
(410) 768-7415
(410) 768-7414 (Facsimile)
dmerkin@oag.state.md.us

St

Counsel for the Motor Vehicle Administration

m
m
m
m

22a

/
I

/

CONCLUSIONS OFT.AW
Discussion above, i conclude as a matter of law

'S'

that:
°

The LlCenSee empl0yed “ “dividaal

not licensed as a driving instructor to

provide any driving instruction for compensation, in violation of section 15-709 and
section In-710 of the Maryland Transportation Article and COMAR 11.23.01
•12 and
11.23.02.08.
°

The Licensee failed to make operation and student records available for inspection by the
Administration during the schools business horns.

in violation of COMAR 11.23.03.07

and 08 and COMAR 11.23.02.09:'
The Licensee is subject to- revocation of its driving
provide driver education programs in Maryland.

school license and its certificate to

Md. Code Ann., Transp. § 15-109(1),

(1), and (3), § 15-710, and § 16-506 (2012).
'ORDER
1 Om&R that the Licensee's driving instructor license, issued

on May 24.2017, be and

hereby is REVOKED; and I further;
ORDER that the Licensee’s certification to provide Maryland dri

ver education program

courses be and hereby is REVOKED; and I further;
ORDER that the records- and publications of the Maryland Motor Vehicle, Administration
reflect this decision.
i

ii
%

{

May 20. 2Q19. ■
Date Decision Mailed
MJVVVda
rt 79235

\

!r.

ill—
\ -. V

'

MicMeiil Wallace
Administrative Law Jndse

rx.

^T
f

1r

23a

ORDER
I hereby ORDER that the Motor Vehicle Administration’s Motion for Summary
Decision be, and hereby is, GRANTED.
I further ORDER that the Appellant’s appeal in this case is DISMISSED

s©

©
©
©
©
©
©
©
©
©
©
©
©
©
©
f
©

determination of the Motor Vehicle Administration to refuse to grant the Appellant's application
for licensure as a driving instructor and certification as a driver education program instructor be,
and hereby is, AFFIRMED.

f. h

November T4-, ?01Q
Date Ruling Mailed'

^J

ksi

■t

ILi

Steven V. Adler x-1 '
Administrative Law Judge

SVA/sw
#183036

REVIEW RIGHTS

Smsses

i!
5C) (SupP^019)j Md- RuIes 7-201
7-210. A separate petition may be filed with
tfe^inrt^waiyefihn^feesand costs on the ground ofindigence. Md. Rule 1-325.
The Office of Administrative Hearings is not apartyHoTmy review process.
Copies Mailed To:
Yvonne Reignat-Vodi
1810 Metzerott Road Apt 47
Adelplii, MD 20783

Damon Bell, Assistant Attorney General
Maryland Department of Transportation
Motor Vehicle Administration
Office of the Attorney General
6601 Ritchie Highway, NE
Glen Bumie, MD 21062

David C, Merldn, Assistant Attorney General
Maryland Department of Transportation
Motor Vehicle Administration
Office of the Attorney General
6601 Ritchie Highway, NE
Glen Burhie, MD 21062

©
©

©
©
©
©

, and the

24a

YVONNE REIGNAT-VODI,

* BEFORE STEVEN V. ADLER,

APPELLANT

* ADMINISTRATIVE LAW JUDGE

v.

* OF THE MARYLAND OFFICE OF

MOTOR VEHICLE ADMINISTRATION,
APPELLEE

* ADMINISTRATIVE HEARINGS
* OAH No.: MBOT-MVA-16-19-29X60

*

if

*

7T

*

if

it

RULING ON MOTION FOR SUMMAR Y nttCKTON
STATEMENT OF THE CASE
ISSUE
SUMMARY OF THE EVIDENCE
FINDINGS OF UNDISPUTED FACT
DISCUSSION
CONCLUSION OF LAW
ORDER
STATEMENT OF THE CASE
On June 13,2019, Yvonne Reignat-Vodi (Appellant) submitted an application to the
Motor Vehicle Administration (MVA) for a driving instructor license and driver education
program instructor certification. On August 28,2019, the Administrator of the MVA issued a
notice refusing to grant the requested license and certification. On September 16,2019, the
Appellant filed a request for hearing before the Office of Administrative Hearings (OAH) to
appeal the MVA:s determination.
On October 11,2019, the MV A filed a Motion to Dismiss (Motion) with twelve
attachments in support of its Motion. A Certificate of Service attached to the Motion indicates
that a copy was sent to the Appellant on the same date of filing. October 11,2019. Any response
to the Motion was due to be filed by the Appellant within fifteen days from the filing of the
JHotiomJJode of Maryland Regulations (COMAR) 28.02.01.12B(3)(a) As of the date of this
ruling, the Appellant has not filed a response to the Motion.

25a

After notice to the parties, I converted the scheduled merits hearing to a motion hearing
and on October 15,2019,1 held a hearing on the Motion at the OAH in Hunt Valley, Maryland.
The Appellant represented herself. The MVA was represented by David C. Merlon, Assistant
Attorney General^ and the Officeof the Attorney General of Maryland.
Procedure is governed in this case by the Administrative Procedure Act, the MVA’s
administrative procedures, and the OAH’s Rules of Procedure. Md. Code Ann., State Gov’t .§§
10-201 through 10-226 (2014 & Supp. 2019); COMAR 11.11.02; COMAR 28.02.01.
ISSUE
Is the MVA entitled to summary decision in its favor?
♦SUMMARY OF THE EVIDENCE
Exhibits
The MVA submitted the following exhibits in support of its Motion:
Ex. 1 - Application for Approval (Permanent Instructor), dated. March 16,2017
Ex. 2 - Notice of Approval, dated December 13,2017
Ex 3 - Photocopy of Certified Driver Education Instructor Identification Card, expiration June
21,2019
Ex. 4 - Letter from the MVA to the Appellant, dated April 22,2019
Ex. 5 - Application for Approval (Instructor License Renewal), dated June 13,2019
Ex. 6 - Letter from the MVA to the AppeEant, dated July 8,2019
' $ Ex. 7 - Application for Approval (Permanent Instructor), dated June 13,2019
4?- Ex. 8 - Notice of Refusal to Grant License and Certification, dated August 28, 2019
*

Ex. 9 - Request for Hearing, dated September 3,2019, received by the MVA on September 16,
2019

26a

Ex. 10 - Withdrawal of Sponsorship of License Renewal, dated September 11,2019
Ex. 11 - Yvonne Reginat-Vodi d/b/a Shepherd’s Driving School, Inc. v, Motor Vehicle
Administration (Wallace, ALJ) (Ofc, Admin. Hrg’s May 20, 2019)
Ex. 12 - Yvonne Reginat-Vodi d/b/a Shepherd’s Driving School, Inc. v. Motor Vehicle
Administration (Amended Decision) (Wallace, ALJ) (Ofc. Admin. Hrg’s June 6,2019)
There were no other exhibits offered or considered.
Testimony
The Appellant testified on her own behalf. The MVA did not offer any witness
testimony.
FINDINGS OF UNDISPUTED EACT
Based upon the Motion, the exhibits and affidavits attached thereto, testimony, and all
other evidence of record, viewing the evidence in a light most favorable to the Appellant, I find
the following material facts are undisputed:
At all times relevant to the proceeding, the Appellant was not licensed to conduct
a driver’s school.
2.

At all times relevant to the proceeding, the Appellant was not employed as a

driving instructor by a licensed driving school.
DISCUSSION
I
Applicable Law and Governing Regulations
—the Standardfor Summary Decision
A contested case hearing, including an appeal of a refusal to grant licensure as a driving
instructor, may be disposed of by a motion for summary decision. Md. Code Ann.. State Gov’t

27a

§ 10-210(6) (2014), The OAHis Rules'of Procedure govern consideration of a motion for
summary decision. * The controlling regulations provide as follows:
D. Motion for Summary Decision.
(1)
Any party may file a motjon-for summary decisionm.allo£J?art of
an action., at any time, on the grouiid that there is no genuine dispute as to any
materiaffact and that the party is entitled.to judgment as a matter of law. Motions
for summary decision shall be supported by affidavits.121
(3)
An affidavit supporting or opposing a motion for summary
decision shall be made upon personal knowledge, shall set forth the facts that
would be admissible in evidence, and shall show affirmatively that the affiant is
competent to testify as to the matters stated in the affidavit
(4)
The judge may issue a proposed or final decision in favor of or
against the moving party if the motion and response show that there is no genuine
dispute as to any material fact that the party in whose favor judgment is entered is
entitled to judgment as a matter of law.
COMAR 28.02.01.12D(1): (3), (4); see also Md. Ann. Code, State Gov’t § 10-210(6)
(2014).
In considering a motion for summary decision, an administrative law judge may be
guided by case law that explains the nature of summary judgment injudicial proceedings, as
these matters are governed under substantively identical criteria. See Bond v. NIBCO, Inc., 96
Md. App. 127, 136 (1993); Md. Rule 2-501 (To prevail in a motion for summary judgment the
moving party must satisfy several burdens. First, a movant must identify the legal cause of

1 The Motion was captioned and styled as a Motion to Dismiss. During oral argument at the motion hearing, the
MVA requested the Motion be treated as one to dismiss or for summary decision. Because the Motion includes
exhibits extrinsic to the initial pleadings, which I have considered in reaching my Ruling, 1 will treat the Motion as
one for summary decision. COMAR28.02.01.02B(7), .12C, D: see. Davis v. DiPino, 337 Md. 642. 648 (1995)
(comparison, of motions to dismiss and for summary judgment), vacated in part on other grounds, 354 Md. 18
(1999): Md. Rule 2-322(c) (If. on a motion to dismiss for failure of the pleading to state a claim upon which relief
can be granted, matters outside the pleading are presented to and not excluded by the court, the motion shall be
treated as one for summary judgment and disposed of as provided in Rule 2-501).
2 While the MVA failed to support the Motion with an affidavit, the Appellant did not dispute the operative facts
identified by the MVA and did not contest the contents or authenticity of the MVA’s exhibits. Instead, the
testimony she offered at the hearing was sufficient to satisfy the requirement of the Rule at issue. COMAR
28.02,01.12D(1), (2).

28a

action or legal defense that the movant relies upon. Second, a movant must set forth sufficient
undisputed factual grounds to satisfy elements of the movant's claim or delense. hmaiiyTa
movapt must explain to the court the legal authority for the court to grant the motion and the
movant’s reasoning for contending that the movant is entitled to judgment as a matter of law).
A review of the opinions of the Supreme Court of the United States and the Court of
Appeals of Maryland addressing this issue is instructive. “Summary judgment is appropriate if
there is no ‘genuine issue, of material fact.*” Anderson v. Liberty Lobby, Inc. , All U.S. 242.248
(1986) (emphasis in original). Facts are material if they would affect the outcome of a case;
there is a genuine issue of fact if the evidence would allow a “reasonable [fact-finder] ... to
return a verdict for the non-moving party.” Id. Material facts in dispute are those facts
satisfying elements of the claim or defense or otherwise affecting the outcome of the case. King
v. Bankerd, 303 Md. 98, 111 (1985). A mere scintilla of evidence in favor of a non-moving
party is insufficient to defeat a summary judgment motion, Anderson, All U.S. at 251. A judge
must draw all justifiable inferences in favor of the non-moving party. Masson v. New Yorker
Magazine, Inc., 501 U.S. 496, 520 (1991).
In addition to demonstrating that there is no genuine dispute of material facts, the moving
party must show that it is entitled to judgment as a matter of law. '“Even where the underlying
facts are undisputed, if the facts are susceptible of more than one permissible factual inference,
the choice between those inferences should not be made as a matter of law, and summary
judgment should not be granted.” East v. PaineWebber, Inc., 131 Md. App. 302,309 (2000),
aff'd, 363 Md. 408 (2001).
When ruling on a motion for summary decision, an administrative law j udge may also
consider admissions, exhibits, affidavits, and sworn testimony for the purpose of determining
whether a hearing on the merits is necessary. Davis. 337 Md, at 648.

29a

II
Positions of the Parties
•The MVA contended that the Appellant was neither employed as a driving instructor by a
licensed driver’s school nor licensed to conduct a driver’s school, statutory requirements in the
alternative, absent one of which she is unable to meet the requirements for licensure and, as such,
it is entitledJO_summarv decision in its favor.
__ Thp. Appellant filed no response to the Mntion, but offered argument and testimony at the
hearing. The Appellant freely acknowledged that she was never in the employ of a licensed
driving school, but was merely using the auspices of a licensed driving school for license
renewal purposes. The Appellant expressed at length her dissatisfaction with Mr. Merkin, the
MVA, and the decision of Administrative Law Judge Michael J. Wallace in June 2019, revoking
her licensure to operate a driving school and her certification to provide driver education
program instruction. The Appellant explained this decision was before a Circuit Court for
judicial review and, moreover, wrongly decided in every sense of the word. For these reasons,
the Appellant opposed the Motion.
Ill
Analysis
The MVA rejulates and administers licensure requirements for driving instructors. Md.
Code Ann., Transp. §§ 15-104,15-109,15-702,15-710 (2012). Section 15-803 of the
Transportation Article sets forth the required elements to be licensed by the MVA as a driving
instructor and to be certified to provide driver’s education in this State, in relevant part, as
follows:
fa) A person may not be licensed under this subtitle unless the person:
(1) Is an individual of good reputation and moral character*
(2) Is licensed to drive under Title 16 of this article:

30a

(3) Has completed the instructor certification program approved by the
Administration: and
(4) Is either:
(i) Licensed under Subtitle 7 of this title to conduct a drivers’ school: or
(ii) Employed as a driving instructor by a licensed drivers’ school.
Md. Code Ann., Transp. § 15-8G3(a) (2012),
There is no dispute amongst the parties that the Appellant is not employed as a driving
instructor by a licensed driver’s school, nor has she been at any time relevant to the proceeding.
Test. App.; Ex. 10, While the Appellant strongly disagrees with the final administrative decision
revoking her driving school license, there is no dispute she is not licensed to conduct a driver’s
school, nor has she been at any time relevant to the proceeding By the plain language of the
governing statute, the Appellant must satisfy one or the other of these requirements as a
condition precedent before

may be eligible for the licensure and certification she seeks.

There is no dispute in the record before me that the Appellant has failed to meet either element.
Accordingly, I conclude the MVA has met its burden to prove there is no dispute of
material fact in this case and it is entitled to judgment in its favor as a matter of law, Md. Code
Ann, Transp. § 15-803(a)(4) (2012); COMAR 28.02.0L12D; see Bondv. NIBCO, Inc,, 96 Md.
App. 127, 136 (1993); Md. Rule 2-501. Therefore, I grant the Motion and dismiss the appeal. CONCLUSION OF LAW
Based on the foregoing Findings of Undisputed Fact and Discussion, I conclude that there
is no dispute as to any material fact and the Motor Vehicle Administration is entitled to summary
decision in its favor as a matter of law. Md. Code Ann, Transp. § 15~803(a)(4) (2012); Bond v.
NIBCO, Inc., 96 Md, App. 127, 136 (1993); Md. Rule 2-501; COMAR28.02,01.12D.

31a

ORDER
I hereby ORDER that the Motor Vehicle Administration’s Motion for Summary
Decision be, and hereby is, GRANTED.
I further ORDER that the Appellant’s appeal in this case is DISMISSED, and the
determination of the Motor Vehicle Administration to refuse to grant the Appellant’s application
for licensure as a driving instructor and certification as a driver education program instructor be.
and hereby is, AFFIRMED.

toW*!! H s-

November 14.2019
Date Ruling Mailed

/ ;J
Steven V. Adler
Administrative Law* Judge

SVA/sw
if 1S3036

REVIEW RIGHTS
This is the final decision of the Motor Vehicle Administration. A party aggrieved by this
final administrative decision may file a written petition for judicial review with the Circuit Court
for Baltimore City, if any party resides in Baltimore City or. has a principal place of business
there, or with the circuit court for the county where any party resides or has a principal place of
business, within thirty (30jdays”of the^ate the Ruling is mailed. Md. Code Ann., State Gov’t
§ 10-222(c) (Supp. 2019); Md. Rules 7-201 through 7-210. A separate petition may be filed with
ihs-eeurLto waive filing fees and costs on the ground of indigence. Md. Rule 1-325.
TheTofEcsTof Administrative Hearings is not a pafty-to any review process.
Copies Mailed To:
Yvonne Reignat-Vodi
1810 Metzerott Road Apt. 47
Adelphi, MD 20783
David C. Merkin, Assistant Attorney General
Maryland Department of Transportation
Motor Vehicle Administration
Office of the Attorney General
6601 Ritchie Highway, NE
Glen Bumie, MD 21062

Damon Bell, Assistant Attorney General
Maryland Department of Transportation
Motor Vehicle Administration
Office of the Attorney General
6601 Ritchie Highway, NE
Glen Bumie, MD 21062

32a

Court of Slppesfe
of jHarplanb
'S&ufi stirC.

361 3S.ofaoe Sioiilelmrlf
^tmapolt^, iHarpianb 21.401 -1699

Suzanne C. Johnson
Clerk

410-260-1500
1-800-926-2583

Lauren M. Vint
Chief Deputy
Marie V, Randali
Doneice Burnette
Rachael Spicknal!
Kisha Taylor-Wallace
Allison Gray
Deputies
Sara Rice
Senior Recorder
Sandra Belt
Administrative Support

June 8.2021
Yvonne Reignat-Vodi
1810 Metzerott Rd., #47
Adelphi, MD 20783

Re:

Yvonne Reignat-Vodi v. Motor Vehicle Administration
Petition Docket Nos. 5 & 6, September Term, 2021

Dear Ms. Reignat-Vodi:
I am in receipt of your “Petitioning the Chief Judge to Order a Motion for
Reconsideration and Correct the Order of April 23rd 2021” in the above-captioned cases.
Please be advised your cases in this Court are now closed. If you wish to appeal this
Court’s decision, you would file an appeal with the United States Supreme Court at 1 First
Street, N.E., Washington, DC 20543.

Sincerely,

J

Suzanne C. Johnson
Clerk

SCJrrls

TTY FOB DEAF; 4 i 0-260-1554

33a

Court of
SfcSEP
O
<n
O
•** *

*v'Av

IP
Suzanne C. Johnson
Clerk

Lauren M, Vint
Chief Deputy

of jHarplatib
fitliteiRg-

361 3&otu£ Patitebarh
JUmtapoIig, jftlarplanb 21401 -1699

Marie Y. Randall
Doneice Burnette
Rachael Spicknall
Kisha Taylor-Wallace
Allison Gray
Deputies
Sara Rice
Senior Recorder

410-260-1500
1-800-926-2583

Sandra Belt
Administrative Support

May 25,2021
Yvonne Reignat-Vodi
1810 Metzerott Rd.. #47
Adelphi,MD 20783
Re:

Yvonne Reignat-Vodi v. Motor Vehicle Administration
Petition Docket Nos. 5 & 6, September Term. 2021

Dear Ms. Reignat-Vodi:
1 am in receipt of your “Petitioner’s Inquiry on the Court of Appeals Decision Before
Filing a Motion for Reconsideration,” dated May 20,2021.
In response to your inquiry regarding the “reason why the Writ of Certiorari was
denied,” as stated in the April 23, 2021 Order issued by this Court, your petition for writ of
certiorari was denied on the basis that “there has been no showing that review by certiorari is
desirable and in the public interest.”
Following the denial of your petition, you submitted, on May 10, 2021, an “Objection
to the Chief Judge Mary Ellen Barbera’s Order on April 23rd 2021 on Denial of Petitioner
Petition for Writ of Certiorari filed on March 1, 2021.” As your petition had already been
denied, as a courtesy to you, we treated your May 10, 2021 pleading as a motion for
reconsideration. If you would like the Court to reconsider your petition, please submit the
$61.00 filing fee and seven additional copies of the “Objection” so that it can be properly
docketed, as requested in our May 13, 2021 letter to you. If you would not like your
“Objection” to be considered as a motion for reconsideration, please be advised that your case
in this Court is now closed.
If you wish to appeal further, you will need to contact the United States Supreme Court.
Sincerely,

O

Suzanne C. Johnson
Clerk
SCJ:rls
34a

TTY FOR DF.A f: 410-260-1554

of Jffcplanb
3&ofmt Crjilurpop Courts oiUppcai i@ItT5mf
361 JHotoe jHouiebarb
^mtapolte, Jtaplanb 21401 -1699
410-260-1500
Suzanne C. Johnson
Clerk

t -800-926-2583

May 13, 2021

Lauren M. Vint
Chief Deputy
—Marie-Y—Randal!—
Doneice Burnette
Rachael Spicknall
Kisha Taylor-Wallace
Allison Gray
Deputies
Sara Rice
Senior Recorder
Sandra Belt
Administrative Support

Yvonne Reignat-Vodi
1810 Metzerott Rd., #47
Adelpki, MD 20783

^-e:

Yvonne Reignat-Vodi v, Motor Vehicle Administration
Petition Docket No. 6, September Term, 2021

Dear Ms. Reignat-Vodi:
We are in receipt of.your “Objection to the Chief Judge Maty Ellen Barbera’s Order
on April 23rd 2021 on Denial of Petitioner Petition for Writ of Certiorari on March 1,202 P
filed in the above-captioned case. We are treating your pleading as a motion for
reconsideration. Please be advised we require a $61.00 filing fee as well as seven additional
copies of your motion.
Please send the required $61.00 filing fee and seven additional copies of your
motion so that your motion can be properly docketed.

Sincerely,

SuzafmeX. Johnson
^Clerk

SCJ:rls
TTY FOR DEAF: 410-260-1554

35a

m T'V*
s&r-Ssit C, jHrtrjJp fesitg : fEjpiil iteiAfejr
.-T-»

***

'■•»

*■*

-jf

351 'SteAs S^lYisA
StCOr-Sg^g—
(410)260-1450
WASHINGTON AREA 1-888-200-7444

February 25, 2021
Yvonne Reignat-Vodi
1810 Metzerott Road #47
Adelphi, MD 207923
Re: Yvonne Reignat-Vodi v. Motor Vehicle Administration
No. 2389, September Term, 2019
No. 2390, September Term, 2019
Dear Ms. Reignat-Vodi:
The date stamp on your recently filed motions in the above referenced cases have been
corrected. I have enclosed the corrected copies of the cover pages for your reference.

Sincerely,
. yTS.

CM
V'

/ GregoryfHiltoji
Clerk "

36a

e-rite

Court of Special Appeal
Gregory Hllto
2/S/2021 2:1 S'Pi

IN THE COURT OF SPECIAL APPEALS OF MARYLAND
Yvonne Reignat-Vodi,

*

Appellant

*

No. 2390, September Term 2019

*

CSA-REG-2390-2019

*

Circuit Court No. CAL1929298

v.

Motor Vehicle Administration,
Appellee

*
*
*
•*

*

*

MANDATE
Ordered and adjudged by the Court of Special Appeals:
10/13/2021 -Third Motion to Extend Time for Filing Corrected Brief denied.
Motion on Order to File Corrected Brief denied. Appeal dismissed.
10/30/2021 - Motion for reconsideration denied.
STATE OF MARYLAND, Set:
I do hereby certify that the foregoing is truly taken from the records and proceedings of the said
Court of Special Appeals. In testimony whereof, I have hereunto set my hand as Clerk and ,
affixed the seal of the Court of Special Appeals, this 5th day of February, 2021.

F Gregory Hilton, Clerk
Court of Special Appeals

37a

ft
y i

ESi

O

SSpXIE
8*

MANDATE - STATEMENT OF COSTS
Court of Special Appeals of Maryland
CSA-REG-2390-2019
Yvonne Reignat-Vodi v. Motor Vehicle Administration

Appellant
Yvonne Reignat-Vodi

Notice of Appeal
Motion for Reconsideration
Filing Fee - Lower Court

50.00
50.00
60.00

Transcript/Stenographer Costs
RPIF

207.25

RPIF

11.00

11.00

Appellant Total

389.25

Total Costs

389.25

STATE OF MARYLAND, ss:

me LTclTorsZX^90103 " tmlytaken *omthe records

P^mor

cou«o?*Z7CeXm hwZZ “ Clerk and amxsd lhe sea/ °,the

Greg Hilton
Clerk of the Court of Special Appeals of Maryland
Costsshown on this Mandate are to be settled between counsel and NOT THRnur.H

38a

this

E-F1LED
Court of Special Appeals
Gregory Hilton
3/11/2021 8:56 AM

IN THE COURT OF SPECIAL APPEALS OF MARYLAND
*

Yvonne Reignat-Vodi,

* No, 2390, September Term 2019

Appellant

* CSA-REG-2390-2019

v.

* Circuit Court No. CAL1929298
-»

Motor Vehicle Administration,

*

Appellee

«■

*
■#

*

*
h

*

*

*

»#•.***

*

" i MANDATE

On the 13th- day of October, 2020: Order of Court, on its own initiative,
dismissing appeal.
On the 30th day of October, 2020: Motion for Reconsideration is denied.

STATE OFMARYLAND, Set:
I do hereby certify that the foregoing is truly taken from the records and proceedings of the said
Court of Special Appeals. In testimony whereof, I have hereunto set my hand as Clerk and.
affixed the seal of the Court of Special Appeals, this 11th day of March, 2021.

Gregory Hilton, Clerk
Court of Special Appeals

39a

Court of Special Appeals
PI

h.

Robert C. Murphy Courts of Appeal Building
—------------- gbiilow.ejBoulevard__________
Annapolis, Maryland 21401-1699
(410)260-1450 WASHINGTON AREA 1-888-200-7444

GREGORY HILTON,
CLERK

Yvonne Reignat-vodi
1810 Metzerott Rd
Unit 47
AdelphiMd 20783
SUMMARY NOTICE
Yvonne Reignat-Vodi v. Motor Vehicle Administration
Case Number: CSA-REG-2390-2019
Circuit Court Number:
Circuit Court:
Date: 7/20/2020

Dear Yvonne Reignat-vodi:
Pursuant to Maryland Rule 8-523(b)(i)» the. above referenced case shall be
decided without oral argument.

GregorjKHilton, Clerk

40a

Court of Special Appeals
43
o
,0

^

*>

flT®Ig

Robert C. Murphy Courts of Appeal Building
____ 361 Rowe Boulevard_________
Annapolis, Maryland 21401-1699
(410)260-1450 WASHINGTON AREA 1-888-200-7444

GREGORY HILTON,
CLERK

Yvonne Reignat-vodi
1810 Metzerott Rd
Unit 47
AdelphiMd 20783
SUMMARY NOTICE
Yvonne Reignat-Vodi v. Motor Vehicle Administration
Case Number: CSA-REG-2390-2019
Circuit Court Number; CSA-REG-2389-2019
Circuit Court: Court of Special Appeals
Date: 9/21/2020

Dear Yvonne Reignat-vodi:
Pursuant to Maryland Rule 8“523(b)(i), the above referenced case shall be
decided without oral argument.

Gregory Hilton, Clerk

41a

IN THE COURT OF APPEALS OF MARYLAND

YVONNE REIGNAT-VODI (D/B/A)

*

SHEPHERDS DRIVING SCHOOL

*

PETITIONER

IN THE
COURT OF APPEALS

*

OF MARYLAND

*

SEPTEMBER TERM, 2019

*

v
MOTOR VEHICLE

*

Case No. CAL19-29298

ADMINISTRATION

*

CAL-REG-2390-2019

*

Petition. Docket No.COA-PET-0006-2021

RESPONDENTS
*

*

*

*

*

*

iK

*.

*

Dear Chief Judge Mary Ellen Barbera,
PETITIONER’S INQUIRY ON THE COURT OF APPEALS DECISION BEFORE
FILING A MOTION FOR RECONSIDERATION

1, Yvonne O. Reignat-Vodi is in receipt of Clerk Susaftne C. Johnson’s letter dated
May 13, 2021 .requesting Petitioner file a Motion for Reconsideration with the Court of
Appeals on the above case. Petitioner has not received the reason why the Writ of
Certiorari was denied and still need the reason for Petitioner to answer accordingly to the
filing for a Motion for Reconsideration with the Court of Appeals.

First, as indicated on tire Clerk Suzanne C. Johnson’s letter dated May 13, 2021
that “We are treating your pleading as a motion for reconsideration” Please know that

42a

Petitioner did NOT make a PLEA to Chief Judge Mary Ellen Barbera in the Objection
dated May 10th 2021. Petitioner OBJECTED to the Chief Judge’s Order dated May 23rd
2021 denying Petitioner’s Writ of Certiorari. As such, there were no reasons attached by
die Chief Judge to the denial

Again, there was no plea in die Objection dated May 10th 2021. It is Petitioner’s
advised that Clerk Suzanne C. Johnson to go back and read the objection from Petitioner
dated May 10lh 2021, There were no reasons stated on the order as to why Petitioner Writ
of Certiorari was denied. Inasmuch the request for filing a motion for reconsideration
should come from one of the judges Maryland Rule 8-605 (Reconsideration) and not the
Clerk.

Maryland Rule 8-605. RECONSIDERATION; States, (a)(l)(2) Motion;
Response, No Oral Argument; The motion shall be filed (before issuance of
die mandate or (2) within day s after the filing of the opinion of die Court,
whichever is earlier. A response to a motion for reconsideration may not be
file unless requested on behalf of the Court by at least one judge who
concurred in the opinion or order.

43a

Second, the Maryland Motor Vehicle has done a major damage to Petitioner’s
driving school, business career and wrongfully repossessed Petitioner’s Driver
instructional Badge Certification. Petitioner is requesting for true justice on the above
mentioned case were due process was not applied. Petitioner fully understood the next
step in the case of Shepherds Driving School and will exhaust all its remedies before she
can move forward with the case of the driving school and driver instructional badge
certification.

Petitioner is requesting that the Court of Appeals SUSTAIN Petitioner Petition for
Writ of Certiorari filed on March I, 2021 as there is no reason to deny the review of both
cases as filed neither file a Motion for Reconsideration. As such. Motion of
Reconsideration can not be file until there is a reason given by the Court of Appeals. If a
decision was reached by the Court of Appeals, Petitioner will need to know the reasons
and answer accordingly to tire order before a Motion for Reconsideration can be filed.

Petitioner have a strong ground for the Court of Appeals to review the above case
because the Circuit Court of Prince Georges County and the Court of Special Appeals did
not make the right decision in the ease rather keep denying and dismissing tire case of
Shepherds driving school from one Court to another.

Again, it’s unfair for the Court of Appeals to deny both cases as it is clear and has
a strong proof that Petitioner has a case, and that both the Circuit Court and the Court of

44a

Special Appeals failed to act accordingly. The Administrative action by the Maryland
Motor Vehicle Administration was wrong in the first place bringing a small business to
court on something minor that could have been resolve through a conference* mediation
or a simple phone call, and this is a clear indication that the Maryland Motor Vehicle
Administration did not discharge its duties accordingly or its incompetent in handling
issues. The case of Shepherds driving school has been ongoing for the past twenty six (26)
months. Therefore, the Court should correct the order, sustain the Write of Certiorari and
hold the Maryland Motor Vehicle Administration accountable of how they handle issues
without following due process.

45a

CONCLUSION

For this reasons set forth above. Petitioner Yvonne Reignat-Vodi D/B/A
Shepherds Driving School Inc. ask the Court of Appeals to grant its Petition seeking a
Writ of Certiorari in order to answer the question raised herein, and to.protect Petitioner's
rights vis-a-vis a flawed legislative enactment and an overzealous and unwarranted
enforcement action by the Maryland Motor Vehicle Administration.
The COMAR Code of the Maryland Agency regulations (1123.01) of the Motor
Vehicle’s Administration for driving school’s were not followed. Petitioner finds it very
difficult to start over again without any compensation from die Maryland Motor Vehicle
Administration as die driving school was the only source of income that supported tiieir
families and Ministry. The Maryland Motor Vehicle Administration claimed to be a
giant State agency but failed to use its power to solve minor problems with a small
business owner but rather destroy a small business like Shepherds driving school with its
power. This is an abuse of power or a malfeasance in office by the Maryland Motor
Vehicle Administration. The Court of Appeals should look into this matter immediately.
The Maryland Motor Vehicle Administration failed to apply the due process to this case
is the reason why the Court of Appeal has to make a proper decision by making the
necessary corrections.

46a

Dated: May 20th, 2021

Respectfully Submitted,

C23M

a

YvounrOrReignat Vodi
Petitioner
1810 Metzerott Road #47
Adelpbi, MD 20783
240-475-186
pastor@shepherdsofzion, org
Pro Se

47a

CERTIFICATE OF SERVICE

I hereby certify that on this 20th day of May, 2021, a copy of the foregoing Petitioner’s
Inquiry on the Court of Appeals Decision before filing a Motion for Reconsideration
were delivered via pre-paid overnight deliver to Chief Judge Maty Ellen Baibera Court of
Appeals case Nos. CAL-19-I8504/COA-PET-0005-2021 & CAL-19-29298/COA-PET0006-2021 were delivered via pre-paid, overnight delivery service to:

David C. Merkin, Motor Vehicle Administration, 6601, Ritchie Highway, N.E.., Rm200
Glen Bumie, MD. 21062

b O. Rlignat-Vodi
Petitioner

48a

IN THE COURT OF APPEALS OF MARYLAND
*

YVONNE REIGNAT-VODI (D/B/A)

*

SHEPHERDS DRIVING SCHOOL

*

IN THE
COURT OF APPEALS

PETITIONER

OF MARYLAND
*

SEPTEMBER TERM, 2019

*

v
MOTOR VEHICLE

*

Case No. CAL 19-29298

ADMINISTRATION

*

CAL-REG-2390-2019

*

Petition Docket No.COA-PET-0006-2021

RESPONDENTS
4

*

*

*

*

*

*

*

*

*

ORDER
Upon careful consideration the Court of Appeals order dated May 23rd 2021
denying Petitioner’s Writ of Certiorari, and failure to provide petitioner with
reasons why the Writ of Certiorari was denied. The Maryland Motor Vehicle
Administration failure to apply due process in resolving die case of the driving
school at the early stage. The delay on the side of the Prince Georges Circuit
Court of Maryland failing to transfer Agency Records from the start of the
case tiled with the Court of Special Appeals on February 7, 2020 for Petitioner
to tile corrected brief with its inclusion on time. I hereby OBJECT the Court
of Appeals decision to deny Petitioner’s Writ of Certiorari; ORDERED the
Maryland Court of Appeal to SUSTAIN Petitioner’s Petition for Writ of

49a

Certiorari. It is this

day of

2021, by the Court of

Appeals of Maryland,

ORDERED, that the Chief Judges decision of the Court of Special Appeals be
CORRECTED at the Court of Appeals as this was a result of non submission of
the Agency records not been transferred from the Circuit Court of Prince Georges
to the Court of Special Appeals.

ORDERED, that the decision of the Administrative Agency including
irregularities and inconsistencies must be CORRECTED at the Court of
Appeals. Petitioner is hereby GRANTED the Petition to SUSTAIN the Writ of
Certiorari: It is this

day of

, 2020, by the Court of

Appeals of Maryland.
ORDERED that Petitioner has LOST INCOME, WAGES, TIME, AND
MONEY WASTED, including the Petitioner BUSINESS CREDIBILITY,
DEFAMATION OF CHARACTER as a result of the discriminatory act of the
Maryland Motor Vehicle Administration against a black owned business. Also,
this act has affected the progress of Shepherds of Zion Ministries International
Church financially, I hereby ORDERED the Court of Appeals to PROCEED
with a DECISION in FAVOUR of the Petitioner. I therefore ORDERED the
Maryland Motor Vehicle Administration to compensate the Petitioner and her

50a

business Shepherds Driving School Inc. the sum of FIVE MILLION
DOLLARS ($5,000,000.00) for all the damages caused by the Motor Vehicle
Administration it is this

day of

^ 2021, by the Court

Appeals of Maryland.
ORDERED, that the Petitioner’s request is hereby GRANTED for the LOST
OF INCOME, WAGES, TIME, AMD MONEY WASTED, BUSINESS
CREDIBILITY, DEFAMATION OF CHARACTERS, and the PREJUDICE
AND

DISCRIMINATORY

act

by

the

Maryland

Motor

Vehicle

Administration against a black owned business. It is also ORDERED to
Reinstate Shepherds Driving School located at 7100 Baltimore Avenue, Suite
100, College Park, MD 20740 and Petitioner Instructor’s license and
Certification.

ORDERED that all Instructional Licenses and Certification

belonging to Petitioner’s husband Mr. Smith Kwame Oliver Vodi be
Reinstated.

JUDGE

51a

IN THE COURT OF APPEALS OF MARYLAND

T

*

YVONNE REIGN AT-VODI (D/B/A)

*

SHEPHERDS DRIVING SCHOOL

*

PETITIONER

IN THE
COURT OF APPEALS

*

OF MARYLAND

*

SEPTEMBER TERM, 2019

*

v
MOTOR VEHICLE

*

Case No. CAL 19-29298

ADMINISTRATION

*

CAL-REG-2390-2019

*

Petition Docket No.COA-PET-0006-2021

RESPONDENTS
*

*

*

*

*

*

*

*

*

Dear Chief Judge Mary Ellen Baibera,
PETITIONING THE CHIEF JUDGE TO ORDER A MOTION FOR
RECONSIDERATION AND CORRECT THE ORDER OF APRIL 23rd 2021

I, Yvonne O. Reignat-Vodi is in receipt of Clerk Susaane C. Johnson’s letter dated
May 25, 2021 indicating that my petition for writ of certiorari was denied on the basis
that “there has been no showing that review by certiorari is desirable and in the public
interest”. How could Shepherds Driving School, which is in a good standing with the
State of Maryland, paid both State and Federal taxes not be desirable in the public
interest?’ The case of Shepherds Driving School is desirable in the eyes of public interest
because the services of the driving school provided to the public was a thirty six (36)
hours driver’s education program that involved students in the State of Maryland.

52a

Shepherds driving school is a reputable institution approved by the Maryland Motor
Vehicle Administration. All instructors are certified by the Maryland Motor Vehicle
Administration. As such. Shepherds driving school paid both State and Federal taxes
since the commencement to the closure of the driving school. That’s make Shepherds
driving school desirable and in the public interest. Petitioner wants the Court of Appeal
to know that Shepherds driving school was licensed, insured, and bonded by the State of
Maryland, therefore the driving school is desirable and in the public interest.
Here is a list of instructor’s and staffs who worked in the best interest of the
Shepherds driving school as follows:
(i)

Yvonne O. Reignat-Vodi - Owner/CEO - Instructors ID - 35488

(ii)

Smith Kwame Oliver Vodi - General Manager

(hi)

Azubuike Nwaolu - Instructor - Instructor’s ID - 35195

(iv)

Earl Gary Garner - Instructor - Instructor’s ID -11389

(v)

Eddy Marilyn Ramirez - Instructor - Instructor’s ID - 15916

(vi)

Leonard A. Davis - Instructor - Instructor’s ID - 16047

(vii)

Wilfred Sahr Pearce - Instructor - Instructor’s ID —14660

(viii) Kenneth Lee Seivers - Instructor - Instructor’s ID - 35534
(ix)

Tamba Dunyakor Esseh-Kaminjah - Instructor’s ID - 11779

00

Samuel Torres Quinoga - Instructor - Instructor’s ID - 13805

(xi)

Jessica Michaca Contreras - Secretary 1

(xii)

Estella Vadafane - Secretary 2

(xiii) Glenda Lisbeth Mejia Mena - Secretary 3

53a

(xiv) Jennifer A. Cruz - Secretary 4
(xv)

Volunteers/Church/SOZMiC - Substituting Receptionist

The name of instructors and staffs mentioned above was hired by Petitioner and
worked for Shepherds driving school during the year May 2017 - March 7, 2019.
Therefore, how can a business that was licensed, bonded and insured, as such rendering
services to the public not be desirable and in the public interest?. Shepherds driving
school provided services to the public since May 2017 through March 7, 2019.
First, there was an error on the Court of Appeals order dated April 23,2021 stating
that Petitioner filed Writ of Certiorari “to the Court of Special Appeals”. Petitioner has
never filed Writ of certiorari with the Court of Special Appeals. All filing was done with
tire Court of Appeals on March 1, 2021. It is very manipulative for the Court of Appeals
to indicate in the order dated April 23rd 2021 drat Petitioner filed Writ of Certiorari with
die Court of Special Appeals. On May 10, 2021 Petitioner objected the Chief Judge’s
order based on the error indicated above.

On the Court of Appeals letter dated May 13, 2021 the Court of Appeals indicated
that “We are treating your pleading as a motion for reconsideration". Please know diat
Petitioner did not make a plea on the objection to the Chief Judge Mary Ellen Barbera
dated April 23rd 2021. The Court of Appeals indicated on the order that petitioner filed a
Writ of Certiorari with the Court of Special Appeals. This is incorrect as Petitioner has
never filed a Writ of Certiorari with the Court of Special Appeals. Again, Petitioner filed

54a

a Writ of Certiorari with the Court of Appeals on March 1, 2021. This is an error on the
path of the Court of Appeals.

Second, as a Citizen of the United States, Petitioner has the light to a fair trial and
not a plea when the case of the driving school was not treated with any due process or
basic standard operation procedures.

There was nothing as pleading indicated on

petitioner’s objection to the Chief Judge. The Court of Appeals should have thoroughly
looked into petitioner writ of certiorari before making it decision denying die case.

Third, On the Court of Appeals letter dated May 25, 2021 the Court of Appeal
indicated that “as a courtesy to you, we treated your May 10, 2021 pleading as a motion
for reconsideration”. This is totally incorrect. Petitioner OBJECTED to Chief Judge
Mary Ellen Barbera’s Order of April 23rd. There was no plea in the objection by
Petitioner. An OBJECTION is different from a PLEA. It’s as if the Court of Appeals is
imposing wrong initiative of a “plea” on Petitioner and this petitioner find not legally
correct However, it is one of the judge’s decisions to request for a motion for
reconsideration and not the Chief Clerk. Except otherwise Maryland Rule 8-605,.
1 Maryland Rule 8-605. RECONSIDERATION; states, (a)(l)(2) Motion;
Response, No Oral Argument; The motion shall be filed (before issuance of
the mandate or (2) within days after the filing of the opinion of the Court,
whichever is earlier. A response to a motion for reconsideration may not be
file unless requested on behalf of the Court by at least one judge who
concurred in the opinion or order.

55a

Again, there was no plea on Petitioner’s Objection to Chief Judge Ellen Barbara
on May 10th 2021. Please find attached a copy of Petitioner’s Objection to the Chief
Judge.
Until the order is correct, Petitioner would not file for a motion for reconsideration.
The error needs to be corrected by the Chief Judge. As such, the request for filing a
motion for reconsideration should come from one of the Judges decision and not die
Clerk.
Petitioner is requesting that the Court of Appeals SUSTAIN Petitioner Petition for
Writ of Certiorari filed on March I. 2021 as there is no reason to deny the review of both
cases as filed neither file a Motion for Reconsideration. Due to inconsistencies and
irregularities by the Court of Appeals. Petitioner sees no need to file a motion for
reconsideration and the following needs to be corrected:(i)

The error of April 23rd 2021, stating that “Petitioner filed Writ of
Certiorari with the Court of Special Appeals was incorrect.

(ii)

The error of May 13, 2021 that “We are treating your pleading as a
motion for reconsideration. Petitioner did not make a plea on the
objection to Chief Judge Ellen Barbera, Petitioner Objected. This is
incorrect

(iii)

The error on the Court of Appeals letter dated May 25, stating “As your
petition had already been denied, as a courtesy to you, we treated your
May 10, 2021 pleading as a motion for reconsideration5'.

56a

Again,

Petitioner did not make a plea rather made an Objection to the Chief
Judge decision of April 23rd, 2021,
(iv)

It is in petitioner’s request that the Court of Appeals correct its
mistakes for the appeal to be docketed by the appellate court, and
thereafter with leave of the appellate court and not vise versa.
Maryland Rule 2-535 (d). Clerical Mistakes.

(v)

How could Petitioner’s Writ Certiorari be denied when the Court of
Appeals falsely claimed that petitioner- filed a Writ of Certiorari with
the Court of Special Appeals?.

Again, Petitioner filed Writ of

Certiorari with the Court of Appeals on March 1, 2021 and not Court of
Special Appeals. This is incorrect. Maryland Rule 2-535 (b).

Please know that Petitioner have a strong ground for the Court of Appeals to
denying the case of Shepherds driving school. Therefore, the Court should correct the
order- and letters mailed to Petitioner, sustain Writ of Certiorari and hold the Maryland
Motor Vehicle Administration accountable of how they handle the case of Shepherds
driving school without following due process.

‘Maryland Rule 2-535 (b) provides that “at anytime, the court may
exercise revisory power and control over die judgment in case of fraud,
mistake, irregularity”.

57a

CONCLUSION
For this reasons set forth above. Petitioner Yvonne Reignat-Vodi D/B/A
Shepherds Driving School Inc. ask the Court of Appeals to grant its Petition seeking a
Writ of Certiorari in order to answer the question raised herein, and to protect Petitioner’s
rights vis-a-vis a flawed legislative enactment and an overzealous and unwarranted
enforcement action by the Maryland Motor Vehicle Administration.

The case of

Shepherds driving school is desirable in the eyes of public interest since the services were
offered to the public of which taxes were filed both State and Federal. Shepherds driving
school provided Driver’s Education to the public and was license, insured and bonded by
die State of Maryland.
The COMAR Code of the Maryland Agency regulations (11.23.01) of the Motor
Vehicle’s Administration for driving school’s were not followed. Petitioner finds it very
difficult to start over again without any compensation from the Maryland Motor Vehicle
Administration as the dri ving school was the only source of income that supported their
families and Ministry. The Maryland Motor Vehicle Administration claimed to be a
giant State agency but failed to use its power to solve minor problems with a small
business owner but rather destroy a small business like Shepherds driving school with its
power. This is an abuse of power or a malfeasance in office by the Maryland Motor
Vehicle Administration. The Court of Appeals should look into this matter Immediately.
The Maryland Motor Vehicle Administration failed to apply fire due process to this case
is the reason why the Court of Appeal has to make a proper decision by making the
necessary corrections.

58a

Dated: June 4,h, 2021

Respectfully Submitted,

i f
YvonWO^ReJnatVodi
Petitioner
1810 Metzerott Road #47
Adelphi, MD 20783
240-475-186
pastor@shepherdsofzion.org
ProSe

59a

CERTIFICATE OF SERVICE
1 hereby certify that on this 4th day of June, 2021, a copy of the foregoing
Petitioner’s petitioning the Chief Judge Mary Ellen Barbera to order a motion for
reconsideration and to correct the order of April 23 rd 2021 were delivered via pre-paid
overnight deliver to Chief Judge Mary Ellen Barbera Court of Appeals case Nos. CAL19-18504/COA-PET-0005-2021 & CAL-19-29298/COA-PET-0006-2021 were delivered
via pre-paid, overnight delivery service to:

David C. Merkin, Motor Vehicle Administration, 6601, Ritchie Highway, N.E.., Rm200
Glen Bumie, MD, 21062

f

\|V

YvdtihejD^Roi^nat-V o di
. V t
B
Petitioner
^

60a

IN THE COURT OF APPEALS OF MARYLAND
*

YVONNE REIGNAT-VODI (D/B/A)

*

IN THE

SHEPHERDS DRIVING SCHOOL
PETITIONER

*

COURT OF APPEALS
OF MARYLAND

*
*

SEPTEMBER TERM, 2019

*

v

MOTOR VEHICLE

*

Case No. CAL19-29298

ADMINISTRATION
- RESPONDENTS

*

CAL-REG-2390-2019

*

Petition Docket No.COA-PET-0006-2021

*

*

*

*

*

*

*

*

*

ORDER
Upon careful consideration the errors of the Court of Appeals order dated
April 23rd 2021 of Petitioner filing its Writ of Certiorari to the Court of Special
Appeals, Errors on the Court of Appeals letter dated May 25, 2021 denying
Petitioner's Writ of Certiorari, forcefully imposing a courtesy to petitioner and
falsely claimed that petitioner’s pleading of May 10, 2021 as a motion for
reconsideration. ORDERED May 23rd 2021 denying Petitioner’s Writ of
Certiorari, and failure to accept the fact that the case of Shepherds driving
school is desirable in the eyes of public interest, since die driving school
offered driver’s education to the public. Petitioner paid taxes for both State
and Federal. Shepherds driving school was licensed, insured and bonded and

61a

it is in good standing by the State of Maryland.

Yet, Petitioner Writ of

Certiorari was denied. The Maryland Motor Vehicle Administration failure to
apply due process in resolving the case of the driving school at the early stage.
The delay on the side of the Prince Georges Circuit Court of Maryland failing
to transfer Agency Records from the start of the case filed with the Court of
Special Appeals on February 7, 2020 for Petitioner to file corrected brief with
its inclusion on time. ORDERED that the Chief Judge issue an order for
motion for reconsideration and correct the order of April 23rd respectively. I
hereby OBJECT the Court of Appeals decision to deny Petitioner’s Writ of
Certiorari; ORDERED the Maryland Court of Appeal to SUSTAIN
Petitioner’s Petition for Writ of Certiorari. It is this

day of

^ 2021, by the Court of Appeals of Maryland,

ORDERED, that the Chief Judge decision of the Court of Special Appeals be
CORRECTED at the Court of Appeals as this was a result of non submission of
the Agency records not been transferred from the Circuit Court of Prince Georges
to the Court of Special Appeals.

ORDERED, that the decision of the Administrative Agency including
irregularities and inconsistencies must be CORRECTED at the Court of
Appeals. Petitioner is hereby GRANTED the Petition to SUSTAIN the Writ of

62a

Certiorari: It is tills

j 2020, by the Court of

day of

Appeals of Maryland.
ORDERED that Petitioner lias LOST INCOME, WAGES, TIME, AND
MONEY WASTED, including the Petitioner BUSINESS CREDIBILITY,
DEFAMATION OF CHARACTER as a result of the discriminatory act of the
Maryland Motor Vehicle Administration against a black owned business. Also,
tliis act has affected the progress of Shepherds of Zion Ministries International
Church financially. I hereby ORDERED the Court of Appeals to PROCEED
with a DECISION in FAVOUR of the Petitioner. I therefore ORDERED the
Maryland Motor Vehicle Administration to compensate the Petitioner and her
business Shepherds Driving School Inc. the sum of FIVE MILLION
DOLLARS ($5,000,000.00) for all the damages caused by the Motor Vehicle
Administration it is this

2021, by the Court

day of

Appeals of Maryland.
ORDERED, that the Petitioner's request is hereby GRANTED for the LOST
OF INCOME, WAGES, TIME, AND MONEY WASTED, BUSINESS
CREDIBILITY, DEFAMATION OF CHARACTERS, and the PREJUDICE
AND

DISCRIMINATORY

act

by

the

Maryland

Motor

Vehicle

Administration against a black owned business. It is also ORDERED to

63a

Reinstate Shepherds Driving School located at 7100 Baltimore Avenue, Suite
100, College Park, MD 20740 and Petitioner Instructor’s license and
Certification.

ORDERED that all Instructional Licenses and Certification

belonging to Petitioner’s husband Mr. Smith Kwarne Oliver Vodi be
Reinstated.

JUDGE

64a

KIU1N THE COURT OF APPEALS OF MARYLAND
4

YVONNE REIGNAT-VODI (D/B/A)

*

IN THE

SHEPHERDS DRIVING SCHOOL

*

COURT OF APPEALS

PETITIONER

♦

OF MARYLAND

*

SEPTEMBER TERM, 2019

*

V

MOTOR VEHICLE

*

Case No. CAL 19-29298

ADMINISTRATION

*

CAL-REG-2390-2019

*

Petition Docket No.COA-PET-0006-2021

RESPONDENTS

■

*

*

*

*

*

*

*

*

*

*

Dear Judge Mary Ellen Barbera.
OBJECTION TO THE CHIEF JUDGE MARY ELLEN BARBERA’S ORDER ON
APRIL 23rd 2021 ON DENIAL OF PETITONER PETITION FOR WRIT OF
CERTIORARI FILED ON MARCH 1,2021

l Yvonne O. Reignat-Vodi is in receipt of your ORDER dated April 23 rd 2021,
received via mail on May 30th 2021, on the denial of Petitioner’s Petition for Writ of
Certiorari on the above subject dated March 1, 2021. Please know that the Petitioner did
not file a Writ of Certiorari with the Court of Special Appeals as indicated on your order
dated April 23 rd 2021. This is in error on your path and it needs to be corrected.
Petitioner’s Writ of Certiorari was filed with the Court of Appeals on March Ist 2021,

65a

Second, a copy of Petitioner’s OBJECTION to the corrected mandate by the Court
of Special Appeals dated 03/11/2021 was requested to be forwarded from the Court of
Special Appeals to the Court of Appeals as both cases are currently with the Court of
Appeals.

The Court of Appeals should SUSTAIN Petitioner Petition for Writ of Certiorari
submitted on March 1, 2021 as there is no reason to deny the review of both cases as filed.

On March 1, 2021, Petitioner filed a Writ of Certiorari stating the reason why the
Writ of Certiorari should be granted to Shepherds driving school and not be denied.
Petitioner request that the Court of Appeals SUSTAIN and grant petitioner’s Writ of
Certiorari.

Petitioner have a strong ground for the Court of Appeals to review the above case
because the Circuit of Prince Georges County and the Court of Special Appeals did not
make the right decision in the case rather keep denying the case form one Court to
another.

Maryland Rule 12-201 states that reasons for the denial of Petitioner’s Writ of
Certiorari shall be in writing. But, Petitioner has not received any reasons for the denial
to respond accordingly.

66a

Again, it’s unfair for the Court of Appeals to deny both eases are clear and it is a
strong proof that I have a case and that both the Circuit Court and the Court of Special
Appeals failed to act accordingly. The Administrative action by the Maryland Motor
Vehicle Administration was wrong in the first place bringing a small business to court on
something minor that could have been resolve through a conference or a simple phone
call, and this is a clear indication that the Maryland Motor Vehicle Administration did not
discharge its duties accordingly or its incompetent in handling issues. Therefore, the
Court should correct the matter and hold the Maryland Motor Vehicle Administration
accountable of how they handle issues without following due process.

‘Maryland Rule 12-203 states that, reasons for the denial of the Wirt of
Certiorari shall be in writing “

67a

CONCLUSION
Tm^ns—reasons—set—forth—above,--Petitioner Yvonne Reignat-Vodi D/B/A
Shepherds Driving School Inc. ask the Court of Appeals to grant its Petition seeking a
Writ of Certiorari in order to answer the question raised herein, and to protect Petitioner’s
rights vis-a-vis a flawed legislative enactment and an overzealous and unwarranted
enforcement action by the Maryland Motor Vehicle Administration.
The COMAR Code of the Maryland Agency regulations (11.23.01) of the Motor
Vehicle’s Administration for driving school’s were not followed. Petitioner finds it very
difficult to start over again without any compensation from the Maryland Motor Vehicle
Administration as the driving school was the only source of income that supported their
families and Ministry. The Maryland Motor Vehicle claimed to be a giant State agency
but failed to use its power to solve minor problems with a small business owner but rather
destroy a small business like Shepherds driving school with its power. This is an abuse of
power or a malfeasance in office by the Maryland Motor Vehicle Administration. The
Court of Appeals should look into this matter immediately. The Maryland Motor Vehicle
Administration failed to apply the due process to this case is the reason why the Court of
Appeal has to make a proper decision by making the necessary corrections.

68a

Dated: May 10th, 2021

Respectfully Submitted,

<c
Yvonne O. Reignat Vodi
Petitioner
1810 Metzerott Road #47
Adelphi, MD 20783
240-475-186
pastor@shepkerdsofzion..ofrg
Pro Se

69a

CERTIFICATE OF SERVICE

I hereby certify that on this 10th day of May, 2021, a copy of the foregoing OBJECTION
to Judge Mary Ellen Barbera of Petitioner’s Petition For A Writ Of Certorari of case Nos.
CAL-19-18504/COA-PET-0005-2021 & CAL-19-29298/COA-PET-0006-2021 were
delivered via pre-paid, overnight delivery service to:

David C. Merkin
Motor Vehicle Administration
6601, Ritchie Highway, N.E.., Rm200
Glen Bumie, MD, 21062

av

i
}

YvoMe^Reigtiat-Vodi
Petitioner

70a

IN THE COURT OF APPEALS OF MARYLAND
*

YVONNE REIGNAT-VODI (D/B/A)

*

IN THE

SHEPHERDS DRI VING SCHOOL
PETITIONER

*

COURT OF APPEALS
OF MARYLAND
SEPTEMBER TERM, 2019

*
*

v

*

MOTOR VEHICLE

*

Case No. CAL 19-29298

ADMINISTRATION

*

CAL-REG-2390-2019

*

Petition Docket No.COA-PET-0006-2021

RESPONDENTS
*

*

*

*

*

%

*

*

*

*

ORDER
Upon careful consideration the delay on the side of the Prince Georges Circuit
Court of Maryland failing to transfer Agency Records from the start of the
case filed with the Court of Special Appeals on February 7,2020 for Petitioner
to file corrected brief with its inclusion on time. I hereby OBJECT the Court
of Appeals decision to deny Petitioner’s Writ of Certiorari; ORDERED the:
Maryland Court of Appeal to SUSTAIN Petitioner’s Petition for Writ of
Certiorari. It is this

day of

Appeals of Maryland,

71a

j 2021, by the Court of

ORDERED, that the Chief Judges decision of the Court of Special Appeals be
CORRECTED at the Court of Appeals as this was a result of non submission of
the Agency records not been transferred from the Circuit Court of Prince Georges
to the Court of Special Appeals.

ORDERED, that the decision of the Administrative Agency including
irregularities and inconsistencies must be CORRECTED at the Court of
Appeals. Petitioner is hereby GRANTED the Petition to SUSTAIN the Writ of
Certiorari: It is this

day of

, 2020, by the Court of

Appeals of Maryland.
ORDERED that Petitioner has LOST INCOME, WAGES, TIME, AND
MONEY WASTED, including the Petitioner BUSINESS CREDIBILITY,
DEFAMATION OF CHARACTER as a result of the discriminatory act of the
Maryland Motor Vehicle Administration against a black owned business. Also,
this act has affected the progress of Shepherds of Zion Ministries International
Church financially. I hereby ORDERED the Court of Appeals to PROCEED
with a DECISION in FAVOUR of the Petitioner. I therefore ORDERED the
Maryland Motor Vehicle Administration to compensate the Petitioner and her
business Shepherds Driving School Inc. the sum of FIVE MILLION
DOLLARS ($5,000,000.00) for all the damages caused bv the Motor Vehicle

72a

Administration it is this

day of

i 2021. by the Court

Appeals of Maryland.
ORDERED, that the Petitioner’s request is hereby GRANTED for die LOST
OF INCOME, WAGES, TIME, AND MONEY WASTED, BUSINESS
CREDIBILITY, DEFAMATION OF CHARACTERS, and the PREJUDICE
AND

DISCRIMINATORY

act

by

the

Maryland

Motor

Vehicle

Administration against a black owned business. It is also ORDERED to
Reinstate Shepherds Driving School located at 7100 Baltimore Avenue, Suite
100, College Park, MD 20740 and Petitioner Instructor’s license and
Certification.

ORDERED that all Instructional Licenses and Certification

belonging to Petitioner’s husband Mr. Smith Kwame Oliver Vodi be
Reinstated.

JUDGE

73a

